                                  INSPECTION




 THIN CLIENT COMPUTER INVENTORY
 VERIFICATION AT THE OFFICE OF THE
 SOLICITOR IN THE MAIN
 INTERIOR BUILDING




Report No.: IU-IS-SOL-0004-2013     March 2014
                   OFFICE OF
                   INSPECTOR GENERAL
                   U.S.DEPA TME T OF THE I                                        ERIO

                                                                                            MAR 1 9 2014
Memorandum

To:            Hilary Tompkins, Solicitor
               Of!ice of the So~                            I/      J   n ·
From:          Donald W.    Cai~ ;:j-L ~'L ~             1

               Deputy Assistant Inspector General for Audits, Inspections, and Evaluations

Subject:       Final Inspection Report - Thin Client Computer Inventory Verification at the
               Office of the Solicitor in the Main Interior Building
               Report No. IU-IS-SOL-0004-2013

        The Office oflnspector General (OIG) has completed an inspection of the U.S.
Department of the Interior's Office of the Solicitor (SOL). Our objective was to determine
whether SOL could account for all of the Dell thin client computers it purchased over a 3-year
period to facilitate Cloud-based computing for its employees.

       We found that SOL had not performed a complete physical inventory of the computers
and had not attached inventory identification tags to them until 2 years after they were originally
purchased. We also found that information on SOL's Financial and Business Management
System (FBMS) inventory list was incomplete and inaccurate. We make four recommendations
to improve the accountability of SOL's equipment.

Background

        Thin client computers are designed for Cloud-based interface. All data is stored in an
external server, and the computers allow users to connect to shared data through a special
network. Software is loaded onto the computers, but they have no capacity for data storage.
These computers are significantly cheaper to purchase per unit than traditional desktops or
laptops, but require more space on the storage area network.

        SOL purchased 140 thin client computers in 2009 and 2011 at a total cost of$51 ,363, but
most were never distributed to staff. A former SOL employee explained that the computers were
not issued because SOL did not have enough knowledgeable IT staff to cover the additional
work that would be required at that time, and its servers did not have the storage capacity for
both Cloud data and the information SOL is required to retain from the Deepwater Horizon
incident.

        A 2013 OIG investigation into an allegation that most of these computers had been stolen
led to discoveries of potential waste and mismanagement. During the OIG investigator's



                         Office of Audits, Inspections, and Evaluatio ns I Washington, DC
fieldwork, SOL provided inadequate information on the number of computers in its possession
and on their locations. This prompted the investigator to refer the issue to us for inspection into
potential loss of and failure to use this equipment.

Results of Inspection

       Our inspection revealed several issues connected with the computers:

       •   Only eight of the computers were ever issued to employees in SOL field offices. At
           the time of our review, the unissued computers were sitting in a limited-access
           storage room at the Main Interior Building (MIB) and had not been removed from
           their original packaging except for when SOL’s IT staff added inventory
           identification tags to them in response to the OIG investigation (see Figure 1).




                   Figure 1. Thin client computers stored at MIB.

       •   SOL has never performed a full physical inventory of the computers.
       •   Although SOL has acquisition procedures, its IT group is not following them. The
           official FBMS inventory listing of the computers was incomplete and included
           incorrect purchase amounts.
       •   SOL’s equipment manager stated that SOL should be following the Department’s
           guidance for equipment management, but he could not identify or explain the
           guidance.
       •   We counted the computers ourselves and found that 11 of the 140 are missing. No
           one in SOL was aware of the loss, and it has not been properly documented.




                                                                                                      2
Recommendations

       We recommend that SOL:

       1. Conduct a full, accurate physical inventory of its equipment annually in accordance
          with the Departmental Manual (DM 114-60.3);

       2. Use the Department’s equipment management and acquisition guidelines and
          procedures, to include tagging items, including them in the FBMS inventory with all
          pertinent information, and tracking their locations and responsible persons;

       3. Complete the appropriate loss/disposal forms for the 11 missing computers; and

       4. Decide whether to issue and use the computers or to excess them.

        Please provide us with your written response to this report within 30 days. The response
should provide information on actions taken or planned to address the recommendations, as well
as target dates and title(s) of the official(s) responsible for implementation. Please send your
response to:

              Donald W. Cairns
              Deputy Assistant Inspector General
              Office of Audits, Inspections, and Evaluations
              U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 4428
              1849 C Street, NW.
              Washington, DC 20240

Scope and Methodology

       To accomplish our objective, we—

       •   obtained a general understanding of the Department’s equipment management
           regulations;
       •   determined the results of the 2013 OIG investigation;
       •   visited SOL at MIB and interviewed SOL employees;
       •   reviewed relevant documentation; and
       •   performed a count of the thin client computers.

       We conducted our inspection in accordance with the Quality Standards for Inspection and
Evaluation as put forth by the Council of the Inspectors General on Integrity and Efficiency. We
believe that the work performed provides a reasonable basis for our conclusions and
recommendations.




                                                                                                3
      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit, inspection, and evaluation reports issued; actions taken to
implement our recommendations; and recommendations that have not been implemented.

       If you have any questions regarding this report, please contact me at 202-208-5745.




                                                                                                  4
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
